In The
Supreme Court of the United States
No. _ _ __
DR. ORIEN L. TULP, PRESIDENT OF THE UNIVERSITY OF SCIENCE,
ARTS, AND TECHNOLOGY,
Petitioner,

v.
EDUCATIONAL COMMISSION FOR FOREIGN MEDICAL GRADUATES;
DR. WILLIAM W. PINSKY, PRESIDENT AND CEO, EDUCATIONAL
COMMISSION FOR FOREIGN MEDICAL GRADUATES,
Respondents.
AFFIDAVIT OF COMPLIANCE
This Petition for Writ of Certiorari has been prepared using:
Microsoft Word 365;
Century Schoolbook;
12 Point Type Space.
As required by Supreme Court Rule 33.1(h), I certify that the Petition
contains 3,225 words, excluding the parts of the Petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Affiant, Bri
y E. Lewis
THE LEX GRoupnc
1050 Connecticut Avenue, N.W.
Suite 500, #5190
Washington, D.C. 20036
(202) 955-0001

2

I am duly authorized under the laws of the District of Columbia to administer
oaths.

My Commission Expires:

To be filed for:
Tommy Swate
Counsel of Record
SWATELAW

403 Wild Plum
Houston, Texas 77013
(713) 377-4860
swatemd@aol.com

Counsel for Petitioner
Dated: January 14, 2021

